         EDWARD BYRNE MEMORIAL 

JUSTICE ASSISTANCE GRANT PROGRAM GRANTS

         AWARDED TO THE NEVADA

      DEPARTMENT OF PUBLIC SAFETY 



        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 



       Audit Report GR-40-10-003 

               June 2010

               EDWARD BYRNE MEMORIAL

      JUSTICE ASSISTANCE GRANT PROGRAM GRANTS 

               AWARDED TO THE NEVADA 

             DEPARTMENT OF PUBLIC SAFETY 


                          EXECUTIVE SUMMARY

      The Office of the Inspector General, Audit Division, has completed an
audit of the Edward Byrne Memorial Justice Assistance Grant Program,
Grant Numbers 2007-DJ-BX-0068, 2008-DJ-BX-0031, 2008-DJ-BX-0744,
with a combined amount of $4,061,051, and the Recovery Act Edward Byrne
Memorial Justice Assistance Grant Program State Solicitation, Grant Number
2009-SU-B9-0043 in the amount of $13,801,023, awarded by the Office of
Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the Nevada
Department of Public Safety (DPS). Between 2006 and 2009, OJP awarded
the DPS six grants totaling $23,095,698. The Office of Criminal Justice
Assistance (OCJA) is a component of the DPS and is responsible for
administering the grant awards.

        The purpose of the Edward Byrne Memorial Justice Assistance Grant
Program (JAG) is to allow states, tribes, and local governments to support a
broad range of activities to prevent and control crime based on their own
local needs and conditions. JAG funds can be used for state and local
initiatives, technical assistance, training, personnel, equipment, supplies,
contractual support, and information systems for criminal justice for any one
or more of the following purpose areas:

  • law enforcement programs;

  • prosecution and court programs;

  • prevention and education programs;

  • corrections and community corrections programs;

  • drug treatment programs;

  • planning, evaluation, and technology improvement programs; and

  • crime victim and witness programs (other than compensation).




                                      i
Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets, in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

       Through Recovery Act JAG funding, the Department of Justice (DOJ)
focuses support on all components of the criminal justice system, including
multi-jurisdictional drug and gang task forces, crime prevention and
domestic violence programs, courts, corrections, treatment, and justice
information sharing initiatives. Recovery Act JAG funded projects could
address crime through providing services directly to individuals and
communities and by improving the effectiveness and efficiency of criminal
justice systems, processes, and procedures.

Audit Results

       The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were supported; allowable; in accordance
with applicable laws, regulations, guidelines, terms and conditions of the
grants; and to determine program performance and accomplishments. The
objective of our audit was to review performance in the following areas:
(1) grant requirements; (2) internal control environment; (3) cash
management; (4) program income; (5) grant expenditures; (6) property
management; (7) supplanting; (8) management of subrecipients and
contractors; (9) Financial Status Reports (FSR), Progress Reports, and
Recovery Act Reports; and (10) program performance and accomplishments.
We determined that indirect costs and contractors were not applicable to
these grants. As shown in Exhibit 1, the DPS was awarded a total of
$23,095,698 to implement the grant programs. However, based on grant
activity, we limited our audit to $17,862,074 in funding awarded under
Grant Numbers 2007-DJ-BX-0068, 2008-DJ-BX-0031, 2008-DJ-BX-0744,
and 2009-SU-B9-0043.




                                      ii
  EXHIBIT 1: 	EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE
              GRANT PROGRAM GRANTS AWARDED TO THE
              NEVADA DEPARTMENT OF PUBLIC SAFETY
                          AWARD START          AWARD
         GRANT AWARD         DATE             END DATE     AWARD AMOUNT
       2006-DJ-BX-0028     10/01/2005         09/30/2010   $     1,808,095
       2007-DJ-BX-0068     10/01/2006         09/30/2010         2,918,581
       2008-DJ-BX-0031     10/01/2007         09/30/2011         1,032,041
       2008-DJ-BX-0744     10/01/2007         09/30/2011           110,429
       2009-DJ-BX-0330     10/01/2008         09/30/2012         3,425,529
       2009-SU-B9-0043     03/01/2009         02/28/2013        13,801,023

                            Total:                             $23,095,698
      Source: OJP Grants Management System (GMS)

      We examined the OCJA’s accounting records, FSRs, Progress Reports,
Recovery Act Reports, and operating policies and procedures and found the
following.

  	 The state of Nevada’s financial management system provides for
     segregation of duties, transaction traceability, system security, and
     limited access.

  	 The OCJA accurately accounted for and reported program income.

  	 Transactions reviewed were properly authorized, classified, supported,
     and charged to the grant.

  	 All costs associated with payroll and fringe benefits for the pay periods
     reviewed were supported and reasonable.

  	 The FSRs reviewed under the grants were submitted timely and were
     accurate.

However, we also found that:

  	 a subrecipient did not comply with a subgrant special condition for the
     acquisition of equipment,

  	 a subrecipient did not follow a state regulation regarding the 

     disposition of property, 


  	 the OCJA had no process to independently verify subrecipient program
     accomplishments, and



                                        iii
  	 the OCJA submitted a Progress Report that contained inaccurate
     information.

  	 the OCJA did not have written internal controls to ensure that
     quarterly Recovery Act Reports were timely, accurate, and free from
     omission and errors.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                    iv
                                 TABLE OF CONTENTS


INTRODUCTION ....................................................................... 1

                                                                                       
    Recovery Act .......................................................................2

                                                                                          
    Audit Purpose ......................................................................2

                                                                                          
    Background .........................................................................3

                                                                                          
    OIG Audit Approach ..............................................................4

                                                                                       
FINDINGS AND RECOMMENDATIONS....................................... 5

                                                                      
    Internal Control Environment .................................................5

                                                                                    
          Single Audit ..................................................................5

                                                                                           
          Financial Management System .........................................6
          
          Preparation for Recovery Act Funds ..................................6
          
    Drawdowns..........................................................................6

                                                                                         
    Program Income...................................................................7

                                                                                       
    Grant Expenditures ...............................................................8

                                                                                        
          Personnel Expenses .......................................................8
  
          Other Direct Costs .........................................................9

                                                                                        
    Property Management ......................................................... 11

                                                                                     
    Supplanting ....................................................................... 12

                                                                                           
    Management of Subrecipients............................................... 12

                                                                                  
          Solicitation Process ...................................................... 12
  
          Awards Process ........................................................... 12
   
          Training and Technical Assistance .................................. 13
         
          Management of Funds .................................................. 13
       
          Monitoring .................................................................. 13

                                                                                           
    Reporting .......................................................................... 14

                                                                                            
          Subrecipient Reporting ................................................. 14

                                                                                      
          Financial Status Reports ............................................... 15

                                                                                      
          Annual Progress Reports ............................................... 15
 
          Quarterly Recovery Act Reports ..................................... 17
    
    Program Performance and Accomplishments........................... 18

                                                                          
    Conclusion......................................................................... 19

                                                                                           
    Recommendations .............................................................. 20

                                                                                      
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY .... 22 

APPENDIX II - NEVADA OFFICE OF CRIMINAL JUSTICE                        

              ASSISTANCE’S RESPONSE TO THE 

              DRAFT REPORT ............................................. 24 


APPENDIX III - OFFICE OF JUSTICE PROGRAMS’

                                           
               RESPONSE TO THE DRAFT REPORT ............... 26 


APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL
    
              ANALYSIS AND SUMMARY OF ACTIONS 

              NECESSARY TO CLOSE REPORT..................... 28

                                                                
                    EDWARD BYRNE MEMORIAL

           JUSTICE ASSISTANCE GRANT PROGRAM GRANTS 

                    AWARDED TO THE NEVADA 

                  DEPARTMENT OF PUBLIC SAFETY


                                 INTRODUCTION 


      The Office of the Inspector General, Audit Division, has completed an
audit of the Edward Byrne Memorial Justice Assistance Grant Program,
Grant Numbers 2007-DJ-BX-0068, 2008-DJ-BX-0031, 2008-DJ-BX-0744,
with a combined amount of $4,061,051, and the Recovery Act Edward Byrne
Memorial Justice Assistance Grant Program State Solicitation, Grant Number
2009-SU-B9-0043 in the amount of $13,801,023, awarded by the Office of
Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the Nevada,
Department of Public Safety (DPS).1 The Office of Criminal Justice
Assistance (OCJA) is a component of the DPS and is responsible for
administering the grant awards.

       The Edward Byrne Memorial Justice Assistance Grant (JAG) is a
formula grant program in which 50 states, the District of Columbia,
American Samoa, Guam, the Northern Mariana Islands, Puerto Rico, and the
U.S. Virgin Islands are eligible to apply.2 The purpose of the JAG Program is
to allow states, tribes, and local governments to support a broad range of
activities to prevent and control crime based on their own local needs and
conditions. JAG funds can be used for state and local initiatives, technical
assistance, training, personnel, equipment, supplies, contractual support,
and information systems for criminal justice for any one or more of the
following purpose areas:

   • law enforcement programs;

   • prosecution and court programs;

   • prevention and education programs;

   • corrections and community corrections programs;


       1
         Since fiscal year (FY) 2006, BJA has awarded $23,095,698 in Edward Byrne Memorial
Justice Assistance Grant funds to the Nevada Department of Public Safety.
       2
           Formula grant programs are noncompetitive awards distributed to states based on a
specific funding formula. Byrne formula awards are based on states’ or territories’ share of
violent crime and population.

                                             1

  • drug treatment programs;

  • planning, evaluation, and technology improvement programs; and

  • crime victim and witness programs (other than compensation).

Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets, in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      Through Recovery Act JAG funding, the Department of Justice (DOJ)
focused support on all components of the criminal justice system, including
multi-jurisdictional drug and gang task forces, crime prevention and
domestic violence programs, courts, corrections, treatment, and justice
information sharing initiatives. Recovery Act JAG funded projects could
address crime by providing services directly to individuals and communities
and by improving the effectiveness and efficiency of criminal justice
systems, processes, and procedures.

Audit Purpose

      The purpose of this audit was to determine whether reimbursements
claimed for costs under these grants were supported; allowable; in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants; and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) grant requirements; (2) internal control
environment; (3) cash management; (4) program income; (5) grant
expenditures; (6) property management; (7) supplanting; (8) management
of subrecipients and contractors; (9) Financial Status Reports (FSR),
Progress Reports, and Recovery Act Reports; and (10) program performance
and accomplishments. We determined that indirect costs and contractors
were not applicable to these grants.



                                      2

      As shown in Exhibit 2, between 2006 and 2009, the Nevada
Department of Public Safety was awarded a total of $23,095,698 in funding
under both the JAG and Recovery Act JAG Programs. However, based on
grant activity, we limited our audit to funding awarded under
Grant Numbers 2007-DJ-BX-0068, 2008-DJ-BX-0031, 2008-DJ-BX-0744,
and 2009-SU-B9-0043.

 EXHIBIT 2: 	EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE 

             GRANT PROGRAM GRANTS AWARDED TO THE 

             NEVADA DEPARTMENT OF PUBLIC SAFETY 

                           AWARD START       AWARD
          GRANT AWARD          DATE         END DATE     AWARD AMOUNT
        2006-DJ-BX-0028     10/01/2005     09/30/2010   $ 1,808,095
        2007-DJ-BX-0068     10/01/2006     09/30/2010      2,918,581
        2008-DJ-BX-0031     10/01/2007     09/30/2011      1,032,041
        2008-DJ-BX-0744     10/01/2007     09/30/2011        110,429
        2009-DJ-BX-0330     10/01/2008     09/30/2012      3,425,529
        2009-SU-B9-0043     03/01/2009     02/28/2013     13,801,023
                             Total:                     $23,095,698
       Source: OJP Grants Management System (GMS)

Background

      OJP’s mission is to increase public safety and improve the fair
administration of justice across America through innovative leadership and
programs. OJP seeks to accomplish its mission by disseminating
state-of-the art knowledge and practices across America by providing grants
for the implementation of these crime-fighting strategies. To support this
mission, the BJA provides leadership and assistance to local criminal justice
programs that improve and reinforce the nation’s criminal justice system,
with goals to reduce and prevent crime, violence, and drug abuse and to
improve the way in which the criminal justice system functions.

       The OCJA, located in Carson City, Nevada, was established in 1987 to
administer grant funds to Nevada state and local agencies and Native
American tribes. Its mission is to reduce violent crime and substance abuse
by extending support to law enforcement agencies throughout the state.
The OCJA provides technical assistance to subrecipients in the areas of
subgrant applications, reporting, and program compliance with federal and
state laws and regulations.




                                      3

OIG Audit Approach

       We tested compliance with what we consider to be the most important
conditions of the grant awards. Unless otherwise stated in our report, the
criteria we audit against are contained in the OJP Financial Guide, award
documents, Code of Federal Regulations, and Office of Management and
Budget Circulars. We tested the OCJA’s:

   	 internal control environment to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard grant funds and ensure compliance with the
      terms and conditions of the grant;

   	 grant drawdowns to determine whether grant drawdowns were
      adequately supported and if the OCJA was managing grant receipts in
      accordance with federal requirements;

   	 grant expenditures to determine the accuracy and allowability of
      costs charged to the grants;

   	 management of subrecipients to determine how the OCJA 

      administered pass-through funds;


   	 Financial Status Reports, Progress Reports, and Recovery Act
      Reports to determine if the required Financial Status Reports,
      Progress Reports, and Recovery Act Reports were submitted on time
      and accurately reflect grant activity; and

   	 grant objectives and accomplishments to determine if the OCJA
      met or is capable of meeting the grants’ objectives.

     The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                      4

               FINDINGS AND RECOMMENDATIONS

     We determined that the OCJA’s system of internal controls and
     the state of Nevada’s financial management system adequately
     provided for segregation of duties, transaction traceability,
     system security, and limited access. Our analysis of FSRs found
     that FSRs were submitted in a timely manner and were accurate.
     We found that the OCJA accurately accounted for and reported
     the receipt of program income. Transactions and personnel
     costs were properly authorized, classified, supported, and
     charged to the grants. However, we found instances where
     subrecipients did not comply with state regulations regarding the
     acquisition and disposition of federally-funded property. The
     OCJA did not have written internal controls to ensure that
     quarterly Recovery Act Reports were timely, accurate, and free
     from omission and errors. Also, the OCJA did not independently
     verify subrecipient reported program accomplishments. Lastly,
     we noted that the OCJA did not always submit accurate Progress
     Reports.

Internal Control Environment

     The OCJA makes grant funds available to subrecipients on a
reimbursement basis by requiring subrecipients to first submit supporting
documentation on any disbursements made before grant funds are released.
We found that the duties of preparing, reviewing, approving, and generating
payment to subrecipients were adequately segregated. Additionally, we
found that OCJA recordkeeping procedures provided for a separate
accounting of JAG and Recovery Act JAG Program funds.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards in a
year must have a single audit conducted. The state of Nevada’s fiscal year
is from July 1 through June 30. For FY 2008, the state conducted a single
audit. We reviewed the FY 2008 Single Audit Report for the state of Nevada
and found that the state complied with the requirements of each of its major
federal programs for the year ended June 30, 2008. At the end of our audit
in March 2010, the single audit report for fiscal year ended
June 30, 2009, was not yet issued.




                                     5

Financial Management System

      The state of Nevada’s financial management system is the Integrated
Financial System (IFS). The IFS contains applications for the processing of
financial transactions such as cash receipts, payment vouchers, and
purchase requisitions. We interviewed OCJA officials about the system and
found that it appeared adequate to manage Recovery Act funds.

Preparation for Recovery Act Funds

      The Recovery Act requires an unprecedented level of transparency and
accountability so Americans know where tax dollars are going and how those
dollars are being spent. To determine the OCJA’s ability to achieve the
accountability and transparency objectives of the Recovery Act, we
interviewed OCJA officials about their preparation for the receipt of Recovery
Act funds. OCJA officials told us that the Recovery Act grant would be
administered under the office’s existing policies, procedures, and internal
controls. They also said that staff members were in the process of learning
about the Recovery Act’s reporting requirements and that staff members had
taken OJP offered webinars and were sent to training sessions on proper
Recovery Act reporting procedures. We believe that the OCJA’s preparation
for the receipt of Recovery Act funds is an adequate first step to ensure
transparent and accurate reporting of how Recovery Act dollars are spent.

      To determine the quality of the OCJA’s financial management controls
and to assess the risk of noncompliance with laws, regulations, guidelines,
and terms and conditions of the grant, we examined the office’s processes
for recordkeeping, procurement, property management, payment of
invoices, and payroll. We concluded that the OCJA’s control environment
appeared adequate to ensure compliance with Recovery Act JAG and JAG
programs.

Drawdowns

      JAG award recipients are permitted to draw down the entire award
amount. The OCJA drew down the total award amount for Grant Numbers
2007-DJ-BX-0068, 2008-DJ-BX-0031, 2008-DJ-BX-0744, and
2009-SU-B9-0043. All grant funds were placed in an interest-bearing
account. The OCJA reimburses subrecipients for actual expenses incurred
under the grant program.

      The state of Nevada established a separate trust fund that allows for
the separate tracking of all JAG funds. The state’s accounting system
separates revenue and expenditure accounts to accurately track and account

                                      6

for all federal funds received and expended by the state. The OCJA performs
weekly reconciliations of all accounts from budget status reports provided by
the state’s financial management system.

Program Income

      According to the OJP Financial Guide, all income generated as a direct
result of an agency-funded project shall be deemed program income.
Interest income on block grants, such as the JAG Program must be
accounted for and reported as program income. Program income may be
used to further program objectives. Any unexpended program income
should be remitted to OJP.

      OCJA officials said that JAG funds are placed in an interest-bearing
account maintained by the Nevada Office of the State Treasurer. Each
quarter, the Treasurer’s office computes the interest based on the average
daily balance of all JAG funds.

       As shown in Exhibit 3, the state earned $146,166 in interest income
from Grant Numbers 2006-DJ-BX-0028, 2007-DJ-BX-0068,
2008-DJ-BX-0031, 2008-DJ-BX-0744, and 2009-DJ-BX-0330. From the
Recovery Act Grant Number 2009-SU-B9-0043, the state earned $60,991 in
interest income. To determine if interest income was expended on allowable
grant purposes, we judgmentally selected four expenditures paid from
interest income for testing. We found that all four transactions were
allowable for grant purposes. To determine if interest income was properly
reported to OJP, we judgmentally selected and reviewed four FSRs the OCJA
submitted to OJP.3 We found that the FSRs accurately reported the receipt
of interest income. Because none of the grants had expired at the
conclusion of our audit, the OCJA was not required to remit any unexpended
interest income to OJP.




      3
       The FSRs reviewed were for quarters ended March 31, 2009, June 30, 2009,
September 30, 2009, and December 31, 2009, for Grant Numbers 2007-DJ-BX-0068,
2008-DJ-BX-0031, 2008-DJ-BX-0744, and 2009-SU-B9-0043.


                                          7

     EXHIBIT 3: PROGRAM INCOME EARNED FROM ALL GRANTS
                FROM NOVEMBER 2006 TO OCTOBER 2009
                             PROGRAM INCOME                        PROGRAM INCOME
                                PER GRANT                             AMOUNT
           2006-DJ-BX-0028                                              $ 76,945
           2007-DJ-BX-0068                                              $ 60,856
           2008-DJ-BX-0031                                              $  7,417
           2008-DJ-BX-0744                                             $     948
           2009-DJ-BX-0330                                              $      0
               JAG Total:                                             $ 146,166
       2009-SU-B9-0043                                                    $     60,991
           Recovery Act JAG Total:                                    $        60,991
           Combined Total:                                            $       207,157
    Source: Office of Criminal Justice Assistance

Grant Expenditures

      The OJP Financial Guide serves as a day-to-day management tool for
award recipients and subrecipients in administering grant programs by
establishing factors affecting the allowability, reasonableness, and
allocability of both direct and indirect costs charged to DOJ grants.

Personnel Expenses

      The OCJA reimbursed the Parole and Probation Division $100,000 from
Grant Number 2007-DJ-BX-0068 for overtime charges from September 2007
to June 2008.4 From September 2009 through December 2009, the OCJA
also reimbursed the Investigation Division $119,972 for the salaries and
fringe benefits of three narcotics control officers. The OCJA did not
reimburse personnel costs to the Investigation Division from Grant Numbers
2008-DJ-BX-0031 and 2008-DJ-BX-0744.

      We found that the pay rates for employees paid overtime from
Grant Number 2007-DJ-BX-0068 and pay rates for employee salaries and
fringe benefits paid from Grant Number 2009-SU-B9-0043 were reasonable.
We selected a judgmental sample of five employees paid from
2007-DJ-BX-0068 for overtime from October 1, 2007, through
December 14, 2007, and five employees for overtime from March 7, 2008,
through June 20, 2008. We verified that labor charges were computed
correctly, properly authorized, accurately recorded, and properly allocated to
the grant.

       4
          We performed a review of personnel expenses for the Parole and Probation and
Investigation Divisions to assess the OCJA’s management of state-level subrecipients.

                                              8

      The Parole and Probation Division did not request reimbursement for
fringe benefits.

       We selected two nonconsecutive pay periods and tested the salaries
and fringe benefits for three narcotics control officers charged to
Grant Number 2009-SU-B9-0043. We tested salaries and fringe benefits
paid for work completed from July 13, 2009, through July 26, 2009, and for
work completed from August 24, 2009, and September 9, 2009. We verified
that labor charges were computed correctly, properly authorized, accurately
recorded, and properly allocated to the grant. We determined that fringe
benefits charged to the grant for the three officers for the two pay periods
were reasonable.

Other Direct Costs

      We reviewed the general ledger accounts for Grant Numbers
2007-DJ-BX-0068, 2008-DJ-BX-0031, 2008-DJ-BX-0744, and
2009-SU-B9-0043.5 In the following four paragraphs, we discuss how we
selected a sample of transactions from each grant to determine if each
transaction was properly authorized, classified, supported, and charged to
the JAG program and Recovery Act JAG program and the result of our tests.

       As of December 2009, the OCJA had reimbursed $2,429,790 to
subrecipients and charged $15,003 in administrative costs to Grant Number
2007-DJ-BX-0068. From the universe of grant expenditures (288
transactions), we selected 14 transactions totaling $319,550 in
reimbursements to the Department of Public Safety’s Investigation and
Parole and Probation Divisions. We found that 14 transactions were properly
authorized, classified, supported, and charged to the JAG program. The
OCJA transferred 2 of the 14 transactions for $50,000 and $6,818 to the
Investigation Division for further distribution as confidential funds.6 The
Investigation Division transferred the funds to various state agencies and its
officers. We selected a judgmental sample of five transfers totaling $22,003
and found the transfers were properly supported with documentation.




       5
         For our transaction testing, we reviewed Grant Numbers 2007-DJ-BX-0068,
2008-DJ-BX-0031, 2008-DJ-BX-0744, and 2009-SU-B9-0043 because of limited activity for
Grant Number 2009-DJ-BX-0330. We had an adequate number of transactions to test from
these four grants so we did not select any transactions from Grant Number 2006-DJ-BX-0028.
       6
         Confidential funds are monies allocated to purchase services, evidence, or specific
information.


                                              9

       As of December 2009, the OCJA had not incurred any administrative
costs, but had reimbursed $797,961 to subrecipients from Grant Number
2008-DJ-BX-0031. As of December 2009, the OCJA also had not incurred any
administrative costs, but had reimbursed $86,539 to subrecipients from
Grant Number 2008-DJ-BX-0744. We combined the grant expenditures of
Grant Numbers 2008-DJ-BX-0031 and 2008-DJ-BX-0744 and calculated a
total universe of 127 transactions. We selected a judgmental sample of 42
transactions totaling $438,209. We found that the 42 transactions were
properly authorized, classified, and supported. One transaction was not
properly charged to the grant. The transaction involved a subrecipient who
charged the grant for two thermal imaging cameras for $5,502 each. In
September 2009, the subrecipient purchased two thermal imagining cameras
from a local hardware store. In January 2010, we found the same camera on
the Federal General Services Administration’s 1122 purchasing program
website for $3,582 for each camera. The Federal General Services
Administration’s 1122 procurement program allows state and local
governmental agencies to purchase new equipment related to counter-drug
activities using federal supply schedule contracts made by the General
Services Administration and the Department of the Army. The $3,582 cost
represents a savings of $1,920 ($5,502 minus $3,582) for each camera and
total savings of $3,840.

       As a special condition to the award, each subrecipient agreed to
contact the OCJA’s 1122 Program Coordinator to determine if equipment can
be obtained through the 1122 procurement program. We asked a
subrecipient official why he purchased the camera from the local hardware
store. The official said that the OCJA’s 1122 Program Coordinator was out
on extended medical leave and program assistance was limited. He also told
us that the OCJA told him the grant was a direct allocation for equipment
purchases for the task force and narcotics investigations. Therefore, he had
no mandatory obligation to coordinate equipment purchases through the
OCJA. The OCJA should ensure that it has staff available to assist
subrecipients in the 1122 Program Coordinator’s absence. We recommend
that the OCJA ensure subrecipients adhere to the subgrant special condition
for all equipment acquisitions.

      As of December 2009, the OCJA did not have any administrative costs,
but reimbursed $208,463 to subrecipients from Grant Number
2009-SU-B9-0043. From the universe of grant expenditures
(14 transactions), we reviewed all 14 transactions for reimbursements to the
Investigation Division for salaries and expenses. We found that the 14
transactions were properly authorized, classified, supported, and properly
charged to the Recovery Act JAG Program.


                                    10

Property Management

      The OJP Financial Guide requires that equipment purchased with grant
funds be only used for criminal justice purposes. The OJP Financial Guide
also states that state agencies must ensure that federally-funded equipment
is managed in accordance with both federal law and the state’s laws and
procedures.

      In 2008, the OCJA reimbursed the Investigation Division for 273 pieces
of equipment purchased from Grant Number 2007-DJ-BX-0068 at a cost of
$159,352.7 We selected 10 equipment purchases, 5 high dollar, and a
judgmental selection of an additional 5, for physical verification. We verified
9 of the 10 purchases. We could not verify one purchase, a Sony
camcorder, because it was missing. An Investigation Division official told us
that the missing camcorder was lost during a police operation in July 2008
and could not be found afterwards. The official could not provide
documentation to support the disposition of the camcorder.

      The State of Nevada Administrative Manual discusses the protocol to
follow in the event that state property is lost or stolen. The Administrative
Manual requires that all lost property be reported by filing a Property
Disposition Form. We found that the lost camcorder had not been reported
to the state until we notified the OCJA of the loss. After our notification,
Investigation Division officials took steps to report the camcorder as lost.
A prompt reporting of lost property by the Investigation Division would have
allowed the OCJA to make a timely inquiry into the circumstances
surrounding the lost camcorder. We recommend that the OCJA ensures that
subrecipients are aware of the state’s regulations for the disposition of
equipment.

      Our audit finding is very similar to the findings of a 2007 State of
Nevada Legislative Counsel Bureau audit of the Investigation Division’s
financial and administrative practices, including accounting for equipment
and property.8 The Legislative Counsel Bureau found that the Investigation
Division did not maintain accurate inventory records for property and
equipment and did not conduct annual physical inventory counts as required.




       7
        To further assess the OCJA’s management of state-level subrecipients, we
performed a review of equipment purchased by the Investigation Division.
       8
         State of Nevada Legislative Counsel Bureau, Department of Public Safety
Investigation Division, Audit Report LA08-05 (October 2007).

                                            11

Supplanting

      According to OJP, federal funds must be used to supplement existing
state and local funds for program activities and must not replace those funds
that have been appropriated for the same purpose. To determine whether
the OCJA used grant funds to supplant existing state and local funds for
program activities, we reviewed biennium budgets for FYs 2006-2007,
2008-2009, and 2010-2011. Based on our review of the state’s budgets, we
found no indication of supplanting of state funds with federal funds.

Management of Subrecipients

      State awarding agencies must ensure that all subawards made from
the JAG and the Recovery Act JAG Program meet certain legislative,
regulatory, and administrative requirements. As part of these requirements,
the OCJA must monitor subrecipient activities to assure compliance with
federal law. The OCJA made subawards to 43 separate subrecipients from
Grant Numbers 2006-DJ-BX-0028, 2007-DJ-BX-0068, 2008-DJ-BX-0031,
2008-DJ-BX-0744, 2009-DJ-BX-0330, and 2009-SU-B9-0043. To determine
whether the OCJA adequately managed its subrecipients, we focused our
examination on categories we consider most critical to the effective
management of subrecipients, such as how the OCJA solicits subrecipients,
makes subawards, provides training and technical assistance, issues
subawards, manages funds, and monitors and reports subrecipient activities.

Solicitation Process

       The OCJA solicited applications for each of the grants by placing
advertisements in local Nevada newspapers and distributing e-mails. We
tested these solicitations for accuracy by comparing them to the OJP state
solicitations used to announce the JAG and Recovery Act JAG Programs. We
found that OCJA’s subaward solicitations accurately described both grant
programs. Based on our review of the OCJA solicitation process, we found
that the subaward solicitations accurately and fully described grant program
requirements.

Awards Process

      The OCJA makes subawards on a competitive basis. Applications
submitted to the OCJA undergo individual review and evaluation by officials
from Nevada’s law enforcement community. The OCJA rates each
application according to the state of Nevada law enforcement strategy,
which includes disrupting drug trafficking operations, reducing the impact of
gangs, and funding drug prosecution courts and drug treatment centers.

                                     12

We judgmentally selected and reviewed five applications from law
enforcement agencies receiving subawards, and five applications from law
enforcement agencies denied subawards. We found evidence that the
state’s law enforcement strategy was used to make awarding decisions and
that the overall process appeared fair and reasonable.

Training and Technical Assistance

       We found a significant portion of the training and technical assistance to
subrecipients was provided from annual monitoring visits and the office’s
distribution of its JAG administrative manual, called the General Guidelines for
Project Directors & Fiscal Managers.9 OCJA officials told us that during
monitoring visits to subrecipients they provide instructions on complying with
the office’s reporting requirements and completing application forms. The
Guidelines provide additional guidance on a variety of topics related to JAG
subaward administration, such as accounting and reporting requirements,
reimbursement requests, training and travel expenses, and unallowable costs.
Based on our review, we concluded that the OCJA provided an adequate form
of training and technical assistance to subrecipients.

Management of Funds

      The OCJA makes grant funds available to subrecipients on a
reimbursement basis. We reviewed the process in which grant payments
were requested and disbursed. Each month, subrecipients submit monthly
financial reports, along with supporting documents, for reimbursement of
expenditures. We also tested subrecipients’ payments as part of our testing
of grant expenditures (discussed in the Grant Expenditures section of this
report) to determine if the OCJA properly authorized, classified, supported,
and charged the grant payments. Based on our testing, we determined that
the OCJA’s management of funds appeared sufficient.

Monitoring

      Grant monitoring is an essential tool to ensure that grant programs are
implemented, objectives are achieved, and grant funds are properly
expended. Because the JAG and the Recovery Act JAG grants awarded to
the states can be passed through to local units of government, success of
the grant program largely depends on an active state monitoring system
that ensures subrecipients’ activity complies with federal laws and


       9
          The OCJA was revising the Guidelines during our audit work. Our audit work and
findings are based on the 2005 version of the Guidelines.


                                            13

regulations. OCJA officials told us that it was their goal to perform an annual
on-site monitoring visit on each subrecipient. During these on-site
monitoring visits the OCJA evaluates subrecipient recordkeeping, financial
management and internal controls related to confidential funds, equipment
and property, contracts, travel, and program operations. We judgmentally
selected and reviewed five monitoring reports completed by the OCJA that
documented the results of the monitoring visits and found that all monitoring
procedures had been properly executed.

Reporting

      According to the OJP Financial Guide, award recipients must submit
both financial and program reports. These reports describe the status of the
funds and the project, compare actual accomplishments to the objectives,
and report other pertinent information. We reviewed the FSRs, the Annual
Progress Reports, the Recovery Act Reports submitted by the OCJA, and
reports the OCJA requires from subrecipients to determine whether each
report was timely and accurate.

Subrecipient Reporting

      The OCJA requires its subrecipients to submit monthly financial claims
that show financial activity and quarterly Progress Reports that show
program accomplishments. We reviewed the process in which grant
payments were requested and disbursed and the OCJA’s written policies for
the reporting of monthly financial activity. We concluded that the OCJA had
adequate controls in place to ensure the timely and accurate reporting of
subrecipient financial activity. We also found that the OCJA’s written policies
were sufficient to ensure that Progress Reports were submitted timely.

      However, we found that no controls existed for the OCJA to ensure
that the Progress Reports submitted by subrecipients were accurate. OMB
Circular A-133 recommends that state agencies implement internal controls
over the reporting of federal grant activity so that program accomplishments
are fairly reported. The Circular encourages the supervisory review of
Progress Reports to assure the accuracy and completeness of data and
information included in the reports. An OCJA official told us that the OCJA
did not verify the accuracy of subrecipient reported program data, which
ultimately was compiled by the OCJA and reported to OJP. The official told
us that verifying the data would be time consuming and unnecessary
because subrecipients would not intentionally report inaccurate data. While
we found no evidence to suggest that subrecipients intentionally reported
inaccurate data, a process of verification would lessen the risk that program
accomplishments are misreported. Accurate reporting strengthens OJP’s

                                      14

ability to evaluate the JAG and Recovery Act JAG Program awards to the
Nevada Department of Public Safety. Therefore, we recommend that the
OCJA implement control procedures to verify the accuracy of subrecipient
quarterly progress reports.

Financial Status Reports

      According to the OJP Financial Guide, quarterly FSRs are due no later
than 45 days after the end of the quarter, with the final FSR due within
90 days after the end date of the award. We reviewed the timeliness of
submission of four FSRs for the quarters ended March 31, 2009,
June 30, 2009, September 30, 2009, and December 31, 2009, for Grant
Numbers 2007-DJ-BX-0068, 2008-DJ-BX-0031, 2008-DJ-BX-0744, and
2009-SU-B9-0043. We found that the OCJA submitted each report in a
timely manner.

      We also reviewed each FSR to determine if it contained accurate
information for actual expenditures incurred during the reporting period and
cumulative interest income earned and expended. We found that FSRs
submitted under Grant Numbers 2007-DJ-BX-0068, 2008-DJ-BX-0031,
2008-DJ-BX-0744, and 2009-SU-B9-0043 were accurate when compared to
the OCJA’s accounting records.

Annual Progress Reports

       OJP requires all JAG recipients to submit annual progress reports. For
FY 2008 and prior, the permanent annual reporting period for all state and
local JAG awards was January 1 through December 31, with reports due
March 31. For FY 2009 and forward, including Recovery Act JAG grants,
state recipients must submit annual progress reports and quarterly
Performance Metric Tool reports. The annual progress reporting period is
the award start date through September 30, with reports due November 29.
The quarterly Performance Metric Tool reports are due on the 30th of the
month following the close of a quarter. State recipients may use the four
PMT reports to satisfy the annual reporting requirement by uploading the
reports into the OJP Grant Management System. We reviewed the Progress
Report submitted for October 1, 2007, through December 31, 2008, for
Grant Number 2008-DJ-BX-0744. We found that the OCJA submitted the
report timely. An OCJA official told us Progress Reports are based on the
information reported in quarterly reports that are required to be submitted
by subrecipients.




                                     15

      The quarterly reports are due within 10 days after the end of each
quarter. The OCJA combines the information from the quarterly reports and
uses the combined information for the Progress Report. We selected a
judgmental sample of eight performance measures from the Progress Report
for Grant Number 2008-DJ-BX-0031 for October 1, 2007, through
December 31, 2008. We compared the eight performance measures to the
quarterly reports submitted by the subrecipients to verify the accuracy of the
performance measures reported in the Progress Report. As shown in
Exhibit 4, seven performance measures were understated and one
performance measure was overstated.

    EXHIBIT 4: 	 ACCURACY OF PROGRESS REPORT 

                GRANT NUMBER 2008-DJ-BX-0031 

                                                         SUPPORTED BY
                                           REPORTED ON    QUARTERLY
                                            PROGRESS     SUBRECIPIENT
       PERFORMANCE MEASURES                  REPORT        REPORTS      DIFFERENCE
   Number of methamphetamine                   57            142            (85)
   related investigations
   Number of methamphetamine                      29          84           (55)
   related arrests
   Amount of methamphetamine seized             831.46     8,531.33     (7,699.87)
   in grams
   Street value of methamphetamine             $63,970     $952,849     ($888,879)
   seized
   Amount of methamphetamine                   202.74       529.81       (327.07)
   purchased in grams
   Street value of methamphetamine             $8,410      $35,252       ($26,842)
   purchased
   Number of drug court participants             171         309           (138)
   Number of specialized gang units or            23          0              23
   officers who received intensive
   training on gangs
 Source: Office of Criminal Justice Assistance

      An OCJA official told us that the Progress Report was understated
because subrecipients did not submit their reports on time for inclusion in
the Progress Report submitted by the OCJA to OJP. The official said this
exception will not occur for subrecipient Progress Reports because
subrecipients enter performance measure directly into OJP’s Grants
Management System. We confirmed with OJP that for FY 2008 JAG grants
and prior, grantees should have reported performance measures in OJP’s
Grants Management System. For FY 2009 JAG and Recovery Act JAG
awards, grantees should have reported quarterly in the Performance
Measurement Tool. The Performance Management Tool allows state
administering agencies to either report for subrecipients or delegate
reporting to subrecipients that may report directly into the Performance

                                           16

Measurement Tool. State administering agencies may upload reports from
the Performance Measurement Tool into OJP’s Grants Management System
to meet the annual reporting requirement.

Quarterly Recovery Act Reports

       In addition to standard reporting requirements, grantees receiving
Recovery Act funding must also submit quarterly reports, which require both
financial and programmatic data specific to Recovery Act activities.
According to BJA and OMB guidance, Recovery Act Reports are due 10 days
after the close of each quarter.10

      We reviewed the last two Recovery Act Reports for timeliness and
found that the OCJA submitted each report timely. According to OMB
guidance, the reports aim to provide transparency into the use of these
funds. The Recovery Act Reports are required to include the following
information:

   	 total amount of funds received and the amount of funds spent on
      projects and activities;

   	 list of those projects and activities funded by name, including a 

      description, completion status, and estimates on jobs created or 

      retained; and 


   	 details on sub-awards and other payments.

      In the Recovery Act Reports, the data pertaining to jobs created and
retained is reported as Full Time Equivalents (FTE). According to OMB
Memorandum 10-08, dated December 18, 2009, the formula for calculating
FTEs is represented as follows:

     TOTAL NUMBER OF HOURS WORKED                  QUARTERLY HOURS
      AND FUNDED BY RECOVERY ACT            ÷       IN A FULL-TIME        =      FTES
       WITHIN REPORTING QUARTER                       SCHEDULE11




       10
         According to Federal Reporting.gov guidance, the recipient reporting due date of
January 10, 2010, was extended to January 22, 2010.
       11
          OMB Memorandum 10-08 describes the calculation for quarterly hours in a full-time
schedule as 520 hours (2,080 hours annually divided by 4 quarters).

                                            17
       We reviewed the Recovery Act Report required for the quarter ended
December 31, 2009, for accuracy. The OCJA reported .79 FTEs created by
the OCJA and 3.2 narcotics detectives retained by the Investigation Division
for a total of 3.99 FTEs in its Recovery Act Report submission for
October 1, 2009, through December 31, 2009. To verify the 3.99 FTEs
reported, we requested supporting documentation for the job creation and
retention data. The supporting documentation provided by the OCJA
supported the 3.99 FTEs created and retained as reported on the Recovery
Act Report.

      We compared the OCJA’s description of quarterly activities to
supporting documentation and the description was accurate except for the
number of weapons purchased by a Nevada sheriff’s office. The report
indicated that a sheriff’s office purchased three weapons. However,
supporting documentation showed that the sheriff’s office purchased 10
weapons. We did not take exception to this minor error. The OCJA reported
$216,207 in reimbursements to seven subrecipients. We traced each
reimbursement to supporting documentation and found the OCJA accurately
reported the $216,207 in reimbursements. Based on our review, we
determined that the Recovery Act Report covering the period
October 1, 2009, through December 31, 2009, was accurate.

       We asked OCJA and DPS officials if they had written internal controls
to ensure that quarterly Recovery Act Reports are timely, accurate, and free
from omission and errors. We also asked officials for procedures to avoid
double counting in quarterly Recovery Act Reports. An OCJA official told us
that they rely on the general written internal control procedures for the
OCJA. We requested and received a copy of these procedures from a DPS
official. We found that these procedures were not specific to the quarterly
Recovery Act Reports. The procedures covered the areas of administrative
controls, security and safeguards, data processing, grants management and
others. We reviewed the grants management section and other sections of
the procedures. We found no evidence of controls for ensuring the accuracy
and timeliness of grant reports. An internal auditor for the DPS told us he
intended to modify the grant management section of the procedures for
quarterly Recovery Act reporting in the near future. We recommend that the
DPS update its internal control procedures to provide guidance for the timely
and accurate review of quarterly Recovery Act Reports.

Program Performance and Accomplishments

     The Nevada Department of Public Safety was awarded funds under the
JAG and Recovery Act JAG grants to achieve the following:


                                     18

  	 disrupt drug-trafficking organizations and seize the assets of drug
     traffickers;

  	 provide various law enforcement and crime prevention programs;

  	 provide alternative sentencing programs;

  	 fund state gang task forces;

  	 add employees to state narcotic task forces;

  	 provide drug treatment programs; and

  	 improve law enforcement information systems and technology.

       To evaluate the DPS’s program performance, we interviewed OCJA
officials about program goals and objectives, reviewed its application and
award of the JAG and Recovery Act JAG Program, and reviewed a Progress
Report submitted by the OCJA. We compared the OCJA grant applications to
program activity reported in Progress Reports. We found evidence that law
enforcement activities reported to OJP such as number of cases, arrests, and
confidential informants; quantity and type of confiscated narcotics; seizures
and forfeitures; and training attended and presented had a relationship to
program goals and objectives. However, as we discussed earlier in this
report, OCJA’s Progress Reports submitted to OJP are based on information
reported to the OCJA in quarterly reports submitted by subrecipients.
Because the OCJA did not independently verify the accuracy of subrecipient
program accomplishments used by the OCJA in its reporting to OJP, we could
not determine whether the OCJA is making progress toward program goals
and objectives.

Conclusion

      We examined the OCJA’s accounting records, FSRs, Progress Reports,
Recovery Act Reports, and operating policies and procedures and found the
following.

  	 The state of Nevada’s financial management system provides for
     segregation of duties, transaction traceability, system security, and
     limited access.

  	 The OCJA accurately accounted for and reported program income.



                                     19

      	 Transactions reviewed were properly authorized, classified, supported,
         and charged to the grant.

      	 All costs associated with payroll and fringe benefits for the pay periods
         reviewed were supported and reasonable.

      	 The FSRs reviewed under the grants were submitted timely and were
         accurate.

However, we also found that:

      	 a subrecipient did not comply with a subgrant special condition 

         regarding the acquisition of equipment, 


      	 a subrecipient did not follow a state regulation for the disposition of
         property,

      	 the OCJA had no process to independently verify subrecipient program
         accomplishments, and

      	 the OCJA submitted a Progress Report that contained inaccurate 

         information. 


      	 the OCJA did not have written internal controls to ensure that
         quarterly Recovery Act Reports were timely, accurate, and free from
         omission and errors.

      Overall, we believe that OCJA’s policies and procedures if followed will
allow it to adequately manage Recovery Act funds.

Recommendations

         We recommend that the BJA ensures that the OCJA:

1.	      Ensures that subrecipients adhere to the special condition for the
         purchase of equipment.

2.	      Ensures that subrecipients are aware of state regulations regarding the
         disposition of property and equipment.

3.	      Implements control procedures to verify the accuracy of subrecipients’
         quarterly Progress Reports.



                                          20

4.	   Ensures that program accomplishments are accurately reported to
      OJP.

5.	   Updates its internal control procedures, including policies that provide
      guidance for the timely and accurate review of quarterly Recovery Act
      Reports.




                                      21

                                                                 APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were supported; allowable; in accordance
with applicable laws, regulations, guidelines, terms and conditions of the
grants; and to determine program performance and accomplishments. The
objective of our audit was to review performance in the following areas:
(1) grant requirements; (2) internal control environment; (3) cash
management; (4) program income; (5) grant expenditures; (6) property
management; (7) supplanting; (8) management of subrecipients and
contractors; (9) Financial Status Reports (FSR), Progress Reports, and
Recovery Act Reports; and (10) program performance and accomplishments.
We determined that indirect costs and contractors were not applicable to
these grants.

      We conducted this audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

      Our audit scope covered JAG Grant Numbers 2006-DJ-BX-0028,
2007-DJ-BX-0068, 2008-DJ-BX-0031, 2008-DJ-BX-0744, 2009-DJ-BX-0330,
and the Recovery Act JAG Grant Number 2009-SU-B9-0043. For our
transaction testing, we reviewed Grant Numbers 2007-DJ-BX-0068,
2008-DJ-BX-0031, 2008-DJ-BX-0744 and 2009-SU-B9-0043 because of
limited activity for Grant Number 2009-DJ-BX-0330. We had an adequate
number of transactions to test from the other four grants so we did not
select any transactions from Grant Number 2006-DJ-BX-0028. We tested
compliance with what we consider to be the most important conditions of the
grants. Unless otherwise stated in our report, the criteria we audit against
are contained in the OJP Financial Guide and the award documents.

      In conducting our audit, we performed sample testing in four areas,
which were grant expenditures, including personnel; FSRs; Progress
Reports; and management of subrecipients. In this effort, we employed a
judgmental sampling design to obtain broad exposure to numerous facets of
the grants reviewed, such as dollar amounts or expenditure category. This
non-statistical sample design does not allow for projection of the test results
to the universes from which the samples were selected.


                                      22

      In addition, we reviewed the timeliness and accuracy of FSRs, Progress
Reports, and Recovery Act Reports; evaluated performance to grant goals
and objectives; and assessed the grantee’s management of subrecipients.
However, we did not test the reliability of the financial management system
as a whole and reliance on computer-based data was not significant to our
objectives.




                                    23

                                                               APPENDIX II

   NEVADA OFFICE OF CRIMINAL JUSTICE ASSISTANCE’S 

           RESPONSE TO THE DRAFT REPORT 



May 31, 2010

Mr. Ferris B. Polk
Regional Audit Manager
Office of the Inspector General
U.S. Department of Justice
75 Spring St., Ste. 1130
Atlanta, GA 30303

Dear Mr. Polk:

The following comments address the recommendation presented in the
March audit report on the Edward Byrne Memorial Justice Assistance Grant
Program awarded to the Nevada Department of Public Safety, Office of
Criminal Justice Assistance.

Recommendation #1
Ensures that subrecipients adhere to the special condition for the purchase
of equipment.

OCJA Response:
     The Office of Criminal Justice Assistance will provide additional
     training to its subrecipients and we will ensure that staff is properly
     trained and backed up in the event the primary person is unavailable.

Recommendation #2
Ensures that subrecipients are aware of state regulations regarding the
disposition of property and equipment.

OCJA Response:
     The Office of Criminal Justice Assistance will provide additional
     training to its subrecipients on the disposition of assets.




                                     24

Recommendation #3
Implement control procedures to verify the accuracy of subrecipient’s
quarterly Progress Reports.

OCJA Response:
     The Office of Criminal Justice Assistance will modify its procedures for
     completing quarterly progress reports to ensure accuracy.

Recommendation #4
Ensures that program accomplishments are accurately reported to OJP.

OCJA Response:
     The Office of Criminal Justice Assistance will endeavor to provide
     accurate timely reporting to the OJP, but reporting time frames may
     differ between when subrecipients report to the OCJA and when OCJA
     reports to OJP. This appears to be the case during this review.

Recommendation #5
Updates its internal control procedures, including policies that provide
guidance for the timely and accurate review of quarterly Recovery Act
Reports.

OCJA Response:
     The Department of Public Safety and the Office of Criminal Justice
     Assistance is currently reviewing its Divisional Internal Controls. As
     part of that review, and in light of the importance of ARRA reporting,
     the Grant Monitoring sections of the Internal Controls will be modified
     to include increased monitoring efforts for grants such as ARRA.

If you have any questions or comments regarding this audit response,
please contact me at (775) 684-4166 or mhamilton@dps.state.nv.us.

Sincerely,



Michelle Hamilton, Chief
Dept. of Public Safety, Office of Criminal Justice Assistance

Cc: 	 Jearld Hafen, Director Dept. of Public Safety
      Jay Giovacchini, Auditor, Dept. of Public Safety Director's Office
      Kim Whallin, Controller, Controller's Office
      William Chisel, Division Administrator, Division of Internal Audit
      Paul Townsend, Legislative Auditor, Legislitative Council Bureau

                                      25

                                                                   APPENDIX III

                  OFFICE OF JUSTICE PROGRAMS’ 

                 RESPONSE TO THE DRAFT REPORT 


MEMORANDUM TO: Ferris B. Polk
               Regional Audit Manager
               Atlanta Regional Audit Office
               Office of the Inspector General

FROM:                Maureen A. Henneberg
                     Director

SUBJECT:             Response to the Draft Audit Report, Office of Justice Programs,
                     Edward Byrne Memorial Justice Assistance Grant Program,
                     Grants Awarded to the Nevada Department of Public Safety,
                     Carson City, Nevada, Grant Numbers 2006-DJ-BX-0028,
                     2007-DJ-BX-0068, 2008-DJ-BX-0031,2008-DJ-BX-0744,
                     2009-DJ-BX-0330, and 2009-SU-B9-0043

This memorandum is in response to your correspondence, dated May 5, 2010,
transmitting the subject draft audit report to the Office of Justice Programs (OJP).
The Office of Criminal Justice Assistance (OCJA) is a component of the Nevada
Department of Public Safety (DPS) and is responsible for administering the grant
awards. We consider the subject report resolved and request written acceptance of
this action from your office.

The report contains five recommendations and no questioned costs. For ease of
review, the draft audit report recommendations are restated in bold and are
followed by the OJP’s response.

1.	   We recommend that the Bureau of Justice Assistance (BJA) ensures
      that OCJA subrecipients adhere to the special condition for the
      purchase of equipment.

      We agree with the recommendation. We will coordinate with OCJA to obtain
      a copy of implemented procedures ensuring that OCJA subrecipients adhere
      to the special condition for the purchase of equipment.

2.	   We recommend that the BJA ensures that OCJA subrecipients are
      aware of state regulations regarding the disposition of property and
      equipment.

      We agree with the recommendation. We will coordinate with OCJA to obtain
      a copy of implemented procedures to ensure that subrecipients are aware of
      state regulations regarding the disposition of property and equipment.

                                        26

3.	    We recommend that the BJA ensures that OCJA implements control
       procedures to verify the accuracy of subrecipient’s quarterly
       Progress Reports.

       We agree with the recommendation. We will coordinate with OCJA to obtain
       a copy of implemented control procedures verifying the accuracy of
       subrecipient’s quarterly Progress Reports.

4.	    We recommend that the BJA ensures that OCJA accurately reports
       program accomplishments to OJP.

       We agree with the recommendation. We will coordinate with OCJA to obtain
       a copy of implemented procedures to ensure that program accomplishments
       are accurately reported to OJP.

5.	    We recommend that the BJA ensures that OCJA update their internal
       control procedures, including policies that provide guidance for the
       timely and accurate review of quarterly Recovery Act Reports.

       We agree with the recommendation. We will coordinate with OCJA to obtain
       a copy of revised internal control procedures, which include policies providing
       guidance for the timely and accurate review of quarterly Recovery Act
       Reports.

We appreciate the opportunity to review and comment on the draft audit report. If
you have any questions or require additional information, please contact Jeffery A.
Haley, Deputy Director, Audit and Review Division, on (202) 616-2936.

cc:	   Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Amanda LoCicero

       Budget Analyst 

       Bureau of Justice Assistance


       Kathy Mason 

       Program Manager 

       Bureau of Justice Assistance


       Richard P. Theis

       Assistant Director

       Audit Liaison Group

       Justice Management Division


       OJP Executive Secretariat 

       Control Number 20100813 



                                         27

                                                              APPENDIX IV

          OFFICE OF THE INSPECTOR GENERAL 

     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY 

                   TO CLOSE REPORT


      The OIG provided a draft of this audit report to the OCJA and OJP. The
OCJA’s comments are incorporated in Appendix II and OJP’s comments are
incorporated in Appendix III of this final report. The following provides the
OIG’s analysis of the response and summary of actions necessary to close
the report.

     Summary of Actions Necessary to Close Report

     1.	 Resolved. The OCJA concurred with our recommendation to
         ensure that subrecipients adhere to the special condition for the
         purchase of equipment. The OCJA stated that it would provide
         additional training to its subrecipients and would ensure that its
         staff is properly trained and backed up in the event the primary
         person is unavailable. OJP concurred with our recommendation
         and stated that it would coordinate with the OCJA to obtain a copy
         of implemented procedures ensuring that the OCJA subrecipients
         adhere to the special condition for the purchase of equipment.
         This recommendation can be closed when we receive and review
         documentation to support that the OCJA has ensured subrecipients
         adhere to the special condition for the purchase of equipment.

     2.	 Resolved. The OCJA concurred with our recommendation to
         ensure that subrecipients are aware of state regulations regarding
         the disposition of property and equipment. The OCJA stated it
         would provide additional training to subrecipients on the disposition
         of assets. OJP concurred with our recommendation and stated that
         it would coordinate with the OCJA to obtain a copy of implemented
         procedures to ensure that subrecipients are aware of state
         regulations regarding the disposition of property and equipment.
         This recommendation can be closed when we receive and review
         documentation to support that the OCJA has made subrecipients
         aware of state regulations regarding the disposition of property
         and equipment.

     3.	 Resolved. The OCJA concurred with our recommendation to
         implement control procedures to verify the accuracy of
         subrecipients’ quarterly Progress Reports. The OCJA stated it

                                     28

   would modify its procedures for completing quarterly progress
   reports to ensure accuracy. OJP concurred with our
   recommendation and stated that it would coordinate with the OCJA
   to obtain a copy of implemented control procedures verifying the
   accuracy of subrecipients’ quarterly Progress Reports. This
   recommendation can be closed when we receive and review
   documentation to support that the OCJA has implemented control
   procedures to verify the accuracy of subrecipients’ quarterly
   Progress Reports.

4.	 Resolved. The OCJA concurred with our recommendation to
    ensure that program accomplishments are accurately reported to
    OJP. The OCJA stated that it would provide accurate and timely
    reporting to OJP. OJP concurred with our recommendation and
    stated that it would coordinate with the OCJA to obtain a copy of
    implemented procedures to ensure that program accomplishments
    are accurately reported to OJP. This recommendation can be
    closed when we receive and review documentation to support that
    the OCJA has implemented control procedures to ensure program
    accomplishments are accurately reported to OJP.

5.	 Resolved. The OCJA concurred with our recommendation to
    update its internal control procedures, including policies that
    provide guidance for the timely and accurate review of quarterly
    Recovery Act Reports. The OCJA stated that it and the
    Department of Public Safety were reviewing internal controls and,
    as part of the review, the internal controls would be modified to
    increase the monitoring efforts of the Recovery Act award. OJP
    concurred with our recommendation and stated that it would
    coordinate with the OCJA to obtain a copy of revised internal
    control procedures, which include policies providing guidance for
    the timely and accurate review of quarterly Recovery Act Reports.
    This recommendation can be closed when we receive and review
    documentation that the OCJA has updated its internal control
    procedures to include guidance for the timely and accurate review
    of quarterly Recovery Act Reports.




                               29

